OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID ASSISTANCE
FOR THE BASIC EDUCATION
PROGRAM IN YEMEN
AUDIT REPORT NO. 6-279-08-003-P 

FEBRUARY 10, 2008 





CAIRO, EGYPT

Office of Inspector General


February 10, 2008

MEMORANDUM

TO:    	       Director, USAID/Yemen, Mike E. Sarhan

FROM: 	        Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:	      Audit of USAID Assistance for the Basic Education Program in Yemen
               (Report No. 6-279-08-003-P)

This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and incorporated them where appropriate. They are
included in their entirety as appendix II.

The report includes five recommendations to USAID/Yemen: (1) to establish procedures
to perform periodic assessments of the implementers’ progress towards achieving
program objectives, (2) to direct its cognizant technical officer to become substantially
involved with the Basic Education program through the development and approval of a
revised monitoring and evaluation plan, (3) to revise the Basic Education program
monitoring and evaluation plans to include indicators that are measurable and
achievable, (4) to require that the Basic Education program progress reports include a
consistent set of indicators to measure performance, and (5) to develop a more
cost-efficient implementing instrument for the continuation of the Basic Education
program. Based on your comments and the documentation provided, management
decisions and final actions have been completed for recommendation no. 1,
recommendation no. 2, recommendation no. 3, and recommendation no. 4. A
management decision has also been reached for recommendation no. 5. Determination
of final action for recommendation no. 5 will be made by the Audit Performance and
Compliance Division (M/CFO/APC) upon completion of the actions planned by the
mission.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


     Audit Objective ............................................................................................................ 4 


Audit Findings ................................................................................................................. 5 


Have USAID-financed activities for the Basic Education 

program in Yemen achieved its intended results?


     Progress Assessment and Substantial Involvement Are Needed ............................... 7 


     Indicators Need to be Measurable, Achievable, and Consistent................................. 9 


     More Cost-Efficient Implementing Instrument Is Needed.......................................... 13 


Evaluation of Management Comments ....................................................................... 15 


Appendix I—Scope and Methodology......................................................................... 16 


Appendix II—Management Comments........................................................................ 18 


Appendix III—Achieved and Planned Results of USAID/Yemen’s 

Basic Education Program ............................................................................................ 22 

SUMMARY OF RESULTS 

According to the 2006 United Nations Human Development Report, 42 percent of the
people in Yemen live in poverty and nearly one in three is malnourished. Less than half
of the adult population is literate, and education levels rank among the lowest in the
world.     In response, USAID/Yemen provides health, education, agriculture, and
economic activities in remote and often dangerous tribal governorates, primarily in
support of the U.S. Government’s counterterrorism and security goals. Specifically, in
July 2004, USAID/Yemen established the Yemen Basic Education Project.1 The
Regional Inspector General/Cairo performed this audit to determine if USAID-financed
activities for the Basic Education program in Yemen achieved its intended results (see
pages 3 and 4).

USAID-financed activities for the Basic Education program did not achieve its intended
results to enhance access to quality primary education in the public sector and increase
literacy and numeracy opportunities at the community level. A full measurement of the
Basic Education program was not determined because USAID/Yemen did not assess
the implementers’ progress toward achieving program objectives in accordance with the
terms of the cooperative agreement, and the Mission was not substantially involved with
the monitoring and evaluation plans. As a result, the lack of adequate assessment
jeopardized the achievement of results set forth in original planning for the components
of the Basic Education program (see page 7). According to the implementers’ progress
reports to USAID/Yemen, only 8 of the 51 indicators had been completed or substantially
completed during the period of review, from October 2005 to March 2007. The effect of
results that were not achieved decreased the opportunities for the project’s success (see
pages 9 to 12).

USAID/Yemen’s cooperative agreement arrangements with the American Institutes for
Research and the Academy for Educational Development produced inefficiencies in
management and costs to the mission. Mission officials raised concerns that multiple
management layers and ineffective communication have contributed to slow or no
achievement of intended results for the Basic Education program. According to the
amended cooperative agreement, approximately $2 million was budgeted for the
overhead costs of the American Institutes for Research and another $2 million was
budgeted for the indirect cost charges of the Academy for Educational Development. As
a result, of the $13.5 million in total project costs, approximately $4 million (or 30
percent) was set aside for overhead and indirect costs (see pages 13 and 14).

The program achieved some progress in building of more than 30 new classrooms and
renovating more than 150 others. More than 1,600 student desks were refurbished, and
more than 900 teachers and administrators received training. In addition, innovations
such as summer camps provided life-skills and awareness training for many
schoolchildren and community participants (see page 5).



1
  The Yemen Basic Education Program was initially known as EQUIP1, implemented by the
American Institutes for Research. This report refers to the project as the Basic Education
program, the name currently used by the mission.

                                                                                    1
Nonetheless, the program has not achieved its intended results for the Basic Education
program. As a result, this audit recommends that USAID/Yemen: (1) establish
procedures to perform periodic assessments of the implementers’ progress toward
achieving program objectives (see page 8); (2) direct its cognizant technical officer to
become substantially involved with the Basic Education program through the
development and approval of a revised monitoring and evaluation plan (see page 8); (3)
revise the Basic Education program monitoring and evaluation plan to include
measurable and achievable indicators (see page 12); (4) require that the Basic
Education program progress reports include a consistent set of indicators to measure
performance (see page 12); and (5) develop a more cost-efficient implementing
instrument for the continuation of the Basic Education program (see page 14).

USAID/Yemen agreed with all of the report recommendations and outlined its actions to
implement each recommendation (see pages 18 to 21).




                                                                                   2
BACKGROUND 

Yemen is one of the least developed countries in the world and has one of the highest
population growth rates in the world. Primary health care reaches only about one in four
Yemenis residing in rural areas. According to the 2006 United Nations Human
Development Report, 42 percent of the people in Yemen live in poverty and nearly one
in three is malnourished. Less than half the adult population is literate, and education
levels rank among the lowest in the world. In addition, rapid depletion of oil and
groundwater resources presents a growing future challenge.

USAID/Yemen provides health, basic education, agriculture, and economic activities in
remote and often dangerous tribal governorates, primarily in support of the U.S.
Government’s counterterrorism and security goals. Jointly, the U.S. Government and
the Government of Yemen seek the support of Yemeni tribes in the war on terrorism.
U.S. Government development assistance seeks to reinforce diplomatic, military, law
enforcement, counterterrorism, and intelligence cooperation by focusing on practical,
visible, high-quality, and fast-impact services. These services include assistance for
health, basic education, agriculture, and economic reform in five target governorates of
Sa’ada, Al-Jawf, Amran, Marib, and Shabwa.

                                    Map of Yemen




According to USAID/Yemen, the gap in educational services contributes to widespread
social discontent, kidnappings, intertribal conflicts, and political instability. Lack of
education services for women and girls in particular remains a contributing factor to
poverty and poor community health conditions. The teaching of women and girls is
important to improve maternal and infant health and nutrition, as well as to reduce
birthrates and to bring about social change in women’s positions in society.

In July 2004, USAID/Yemen awarded a $10 million cooperative agreement to the
American Institutes for Research to establish and organize the Basic Education
program. A separate award under the agreement was made to the Academy for
Educational Development to implement the project on the ground in Yemen. This award
followed the June 2003 reopening of the USAID mission in Yemen after a 7-year

                                                                                    3
absence.     The project’s initial design coincided with a “fast-track” initiative to
complement the U.S. Government’s strategy in Yemen, a country considered an ally in
the war on terrorism. The award document stated that “the primary intention of
USAID/Yemen and Embassy/Sana’a is to rapidly and visibly increase basic education
opportunities, enrollment, student retention, and education quality in the target areas.”

USAID/Yemen’s strategic objective, “Improved Basic Education, Especially for Women
and Girls,” stressed three intermediate results:

(1)   enhanced access to quality primary education in the public sector;
(2)   increased literacy and numeracy opportunities at the community level; and
(3)   improved public sector environment for education.

The Basic Education program was tasked to address these results in its design plan and
implementation strategy. In addition, community mobilization and increased participation
of girls and women were cross-cutting objectives integrated into each of these
interventions. The Basic Education program was slated to end in July 2007. However, a
1-year extension to July 2008 was granted to allow more time for implementers to
complete some work and initiate new activities within the literacy and public sector
environment components. This extension increased the project funding by $3.5 million
to a total of $13.5 million. The mission director noted that USAID/Yemen submitted a
$20 million proposal for the continuation of Yemen’s education program beyond July
2008. This issue was the subject of a diplomatic discussion between President Bush
and Yemen’s President Saleh during meetings in Washington in May 2007. In a
September 2007 press release, USAID announced Yemen’s inclusion in the Presidential
International Education Initiative, along with Ethiopia, Mali, Liberia, Ghana, and
Honduras.

AUDIT OBJECTIVE
The audit was conducted as part of the Office of Inspector General’s audit plan for fiscal
year 2007 to answer the following question.

•	 Have USAID-financed activities for the Basic Education program in Yemen achieved
   its intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    4
AUDIT FINDINGS
USAID-financed activities for the Basic Education program in Yemen did not achieve its
intended results to enhance access to quality primary education in the public sector and
increase literacy and numeracy opportunities at the community level. From October
2005 to March 2007, the Basic Education program had completed or substantially
completed only 8 of 51 indicators measuring performance, as shown in table 1.

       Table 1: Basic Education Results as Measured by Program Indicators

                       Indicators completed                       7
                       Indicators substantially completed         1
                       Indicators with little or no progress     43
                                                       Total =   51

The impact of the lack of progress can be seen in the indicators partially completed or
not completed. For example, in comparison to planned results, the Basic Education
program:

•   Improved 34 out of 77 (44 percent) basic education facilities.
•   Repaired the furniture in 15 out of 77 (19 percent) schools.
•   Renovated 14 out of 40 (35 percent) schools with latrines.
•   Distributed 1,317 out of 3,385 (39 percent) training manuals.

Many basic education activities showed little or no progress. For example, the literacy
component of the program had little or no progress for 14 of its 16 indicators. Other
indicators with little or no progress included the number of schools renovated to add
separate toilet facilities for girls, the number of multipurpose rooms built, and the use
rates of multipurpose rooms (in days per year). In other cases, indicators measuring
important aspects of progress could not be or were not measured, such as increase in
female teachers recruited, trained, and working in targeted schools; proportion of
students by gender retained until grades three, six, and nine; and percentage of students
achieving minimal competency in Arabic and math.

According to the implementing partner, the Academy for Educational Development, and
USAID staff, some progress had been achieved despite Yemen’s difficult working
environment. For example, summer camps in 2006 provided life-skills and awareness
training for many schoolchildren and community participants. They also cited building
more than 30 new classrooms, renovating more than 150 old classrooms, and repairing
more than 1,600 student desks. Implementers reported similar outcomes for teachers
and administrators, in which 919 educators were trained of the planned goal of 953.

According to the Ministry of Education, implementing partners, and USAID/Yemen, the
program was well received by the targeted communities. It produced enthusiasm and
interest in education among parents, teachers, and government officials. Prior to
USAID’s presence, many schools were barely functioning and in poor condition and
there was general dissatisfaction with education efforts in rural areas. Parents and
Ministry of Education officials expressed hopes that the program would continue to
expand.

                                                                                    5
                Academy for Educational Development photographs of
                student desks before and after refurbishing at a school in
                Shabwa Governorate, Yemen. (March 2006)

Despite the initial progress cited and the acceptance of the program by the rural
communities, the Basic Education program did not achieve its intended results.

Although the mission had difficult challenges to program implementation, its own
program management practices contributed to the lack of progress. For example, the
implementers developed and used three different work plans2 between October 2005
and March 2007 to guide their work in Yemen. Between the transitions from one work
plan to another, the implementers dropped 36 indicators and added 19 indicators without
evidence of mission involvement. In addition, at the outset, because of the need for fast
implementation, the mission employed an inefficient contracting arrangement. To
correct these issues and strengthen this important program, this audit report has
identified the following areas for the mission to improve program implementation and
achieve intended results.

•	 USAID/Yemen needs to assess the implementers’ progress toward achieving
   program objectives in accordance with the terms of the cooperative agreement, and
   become substantially involved with the monitoring and evaluation plans.
•	 USAID/Yemen needs to revise the Basic Education program monitoring and
   evaluation plans to include measurable and achievable indicators.
•	 USAID/Yemen needs to require that the Basic Education program progress reports
   include a consistent set of indicators to measure performance.
•	 USAID/Yemen needs to develop a more cost-efficient implementing instrument for
   the continuation of the Basic Education program.




2
    The implementer included the third work plan within a quarterly progress report.

                                                                                       6
Progress Assessment and Substantial
Involvement Are Needed

    Summary: Although required to do so by both the USAID Automated Directives
    System and the cooperative agreement, USAID/Yemen did not assess the
    implementers’ progress toward achieving program objectives and was not
    substantially involved with the monitoring and evaluation plans. Implementers
    used three different plans from September 2005, June 2006, and October 2006 to
    guide monitoring and evaluation. However, the mission did not assess the
    implementers’ progress in completing planned indicators and did not ask why the
    implementers dropped and added indicators. Staff shortages and lack of familiarity
    with oversight duties and functions led to this lack of assessment and questioning.
    As a result, the lack of adequate assessment and lack of substantial involvement
    with the implementers’ monitoring and evaluation plans jeopardized the
    achievement of planned results for the Basic Education program.


In July 2004, USAID/Yemen decided to use an associate cooperative agreement3
implementing mechanism to “fast-track” practical, visible, and fast-impact services in
basic education to complement the U.S. Government’s terrorism strategy in Yemen. To
guide the monitoring and evaluation of project activities, the implementers designed
three monitoring and evaluation plans from September 2005 through October 2006.
Under this arrangement, the implementers developed the project design and the mission
was substantially involved in the following:

•   Approving annual work plans and all modifications.
•   Approving monitoring and evaluation plans.
•   Monitoring progress toward achievement of program objectives.

The first monitoring and evaluation plan of September 2005 incorporated the project’s
initial design, addressed two of the mission’s intermediate results, and added 31 specific
indicators for planned activities. A second monitoring and evaluation plan in June 2006
carried forward 41 indicators. Finally, after the original award was amended to reflect a
1-year extension, a third plan of October 2006 listed 21 indicators. Between the
transition from one monitoring and evaluation plan to the next, the implementers
dropped 36 indicators and added 19 indicators representing results of specific activities
without documenting reasons for the changes.

The USAID/Yemen education staff did not question the reasons for the lack of reporting
for changed indicators. Nor did mission staff approve these annual work plans and
modifications, approve monitoring and evaluation plans, or assess the implementers’
progress in completing planned indicators.

Both USAID Automated Directives System (ADS) and the cooperative agreement
provide guidance for monitoring and assessing progress. ADS 303.2(f), states that the
cognizant technical officer is responsible for ensuring that USAID exercises prudent
management of assistance awards and for making the achievement of program

3
 This associate cooperative agreement is made under the auspices of the umbrella leadership
cooperative agreement, GDG-A-00-03-00006-00, which supports basic education objectives.

                                                                                     7
objectives easier by monitoring and evaluating the recipient and its performance. In
addition, regarding the monitoring for quality and timeliness, ADS 202.3.6.1 states that,
“[u]ltimately, as part of assessing the effectiveness of activities in achieving results,…the
strategic objective team should form an opinion about overall grantee performance and
its implications.” Adjustments to an award are allowed when conditions warrant.

According to the associate award agreement and the cognizant technical officer
designation authority for the agreement, the cognizant technical officer, along with the
education team, was responsible for assessing implementers’ overall performance,
exerting substantial involvement with approving monitoring and evaluation plans, and
making written recommendations to the agreement officer when any changes to the
program or description were necessary.

The initial monitoring and evaluation plan went into effect as the mission struggled to
recruit qualified staff. The mission had no permanently assigned education program
staff members until September 2005, when it hired its first staff member. In March 2006,
the mission hired its second staff member. This second staff member did not become
the cognizant technical officer until October 2006.

The mission did maintain contact with the associate implementer’s field office in Yemen.
For example, the cognizant technical officer stated that he frequently asked for reporting
data such as updated numbers for performance management reports and used several
monitoring tools, including quarterly reports, field visits, and third-party input.
Nevertheless, both of the new education staff members were unfamiliar with USAID
oversight duties and the cognizant technical officer function in general. As a result, the
lack of adequate assessment and lack of substantial involvement with monitoring and
evaluation plans jeopardized the achievement of planned results for the Basic Education
program. Therefore, the audit team made the following recommendations.

       Recommendation No. 1: We recommend that USAID/Yemen establish
       procedures to perform periodic assessments of the implementers’
       progress toward achieving program objectives.

       Recommendation No. 2: We recommend that USAID/Yemen direct its
       cognizant technical officer to become substantially involved with the Basic
       Education program through the development and approval of a revised
       monitoring and evaluation plan.




                                                                                       8
Indicators Need to Be
Measurable, Achievable, and Consistent

  Summary: Both USAID’s Automated Directives System and the cooperative
  agreement required indicators to be measurable and achievable. From October
  2005 until March 2007, the Basic Education program achieved results as intended
  for 8 of 51 indicators. Intended results were not achieved for the remaining 43
  indicators. In some cases, indicators were neither measurable nor achievable. In
  addition, the Basic Education program did not report indicators in a consistent
  manner, dropping and adding indicators across three different monitoring and
  evaluation plans. Despite unusual hindrances unique to Yemen, USAID/Yemen
  needs to effectively measure the progress of the Basic Education program toward
  achieving its intended results. The effect of results not achieved decreased the
  opportunities for the success of the Basic Education program within its stated
  timeframes. In addition, insufficient reporting impaired the effectiveness of
  USAID/Yemen decision makers.


From October 2005 to March 2007, the implementers developed and used three
monitoring and evaluation plans dated September 2005, June 2006, and October 2006,
respectively. The implementers planned to achieve results measured by 51 indicators
that were based on related activities (see appendix III).




         USAID Office of Inspector General photograph of female
         teachers attending a teaching assessment session in Amran
         Governorate, Yemen. (June 2007)

Yemen’s Basic Education program achieved intended results for 8 of 51 indicators. Of
these eight indicators, refurbishing of student desks and teacher training achieved the
most progress. During fiscal year 2006, the Basic Education program repaired more
than 1,600 desks.        Implementers reported similar outcomes for teachers and
administrators; 919 educators were trained out of the planned goal of 953. The program
built more than 30 new classrooms and provided life-skills and awareness training to
schoolchildren and community participants at summer camps. However, the program
did not achieve intended results for the remaining 43 indicators, as shown in table 2.

                                                                                  9
                         Table 2: Causes for Indicator Targets Not Achieved

                       Indicators not reported                            9
                       Indicators not measurable                          6
                       Indicators not achievable                          8
                       Indicators with delayed or slowed progress        20
                                                           Total =       43

The implementers did not report data to USAID/Yemen for nine indicators. According to
mission staff and the Academy for Educational Development’s chief of party4, for some
of these nine indicators, activity data were not being captured even though some work
had been accomplished or was ongoing. For example, some instances of renovation of
facilities had not been reported, as was the case with making toilets “girl friendly.” A lack
of data collection instruments to measure student competency in Arabic and math and
the number of hours teachers spent in the classrooms led to no reporting in another two
instances.

The implementers could not report data to USAID/Yemen for six indicators because the
Ministry of Education could not be relied upon for accurate data input. For example, the
Ministry of Education was unable to report the number of students by gender and age
who were attending certain cluster schools. Because the ministry could not collect
accurate data, the implementers did not measure the indicators, did not report progress,
and subsequently excluded the indicators from the June 2006 and October 2006
monitoring and evaluation plans.

The implementers could not achieve targets for eight indicators. All of these eight
indicators were excluded from the October 2006 monitoring and evaluation plan without
reporting any progress achieved. The eight indicators were part of the literacy program,
which achieved little progress.          According to the Academy for Educational
Development’s chief of party, indicators such as determining the number of literacy
programs established, the number of communities benefiting from nonformal education
activities, and other literacy indicators depended upon active involvement of qualified
interveners, which were not available from the staff of the Academy for Educational
Development. In addition, the literacy program had no facilities in which to operate
because multipurpose rooms were still under construction.

The implementers’ progress for 20 indicators was slowed or delayed. For example, the
implementers furnished and equipped 25 out of 77 (32 percent) basic education facilities
and improved 34 out of 77 (44 percent) basic education facilities. Of these 20 indicators,
18 were dropped from subsequent monitoring plans.

In addition to the reasons cited for individual indicators, other cross-cutting issues
hindered the mission from achieving its targets for the Basic Education program. For
example, the implementers dropped 36 indicators between monitoring plans without
providing reasons to the mission’s cognizant technical officer and the mission’s
education team. In addition, according to the chief of party, the actual situation in
Yemen reflected a difficult working environment that hindered the implementation of
some aspects of the program. Hindrances cited by the implementers included the
following:
4
    The chief of party is head of the implementer’s in-country office.

                                                                                      10 

•	 Difficulty in hiring skilled technical staff.
•	 Lack of central government authority in rural areas. (Tribal leaders and sheikhs often
   exerted authority over the work that could and could not be done in the villages.)
•	 Work schedules of government officials (including short work days and long
   holidays).
•	 Lack of infrastructure.
•	 Security concerns. (The chief of party reported a shooting involving his staff.)5
•	 Lack of teacher-training facilities.
•	 Shifting guidance from USAID.
•	 Demands on the field office by the lead implementer.

In another instance, the Basic Education program implementers and other outside
donors had difficulty on the local level with a government decentralization effort that
placed the Ministry of Education in a position to oversee basic education activities within
the governorates, districts, and local councils.

Despite the lack of consistency in the reporting of indicators—as indicated by 36
indicators being dropped from the monitoring and evaluation plans—a number of
activities continued, such as the construction of multipurpose rooms. Eight such
facilities were listed in the June 2006 monitoring and evaluation plan. However, none
carried over to the October 2006 plan. USAID audit staff visited two such multipurpose
buildings under construction during a site visit to the Amran Governorate.




          USAID Office of Inspector General photograph of a multipurpose
          room under construction in Amran, Yemen. (June 2007)


5
  Security issues exist in the five target areas. In addition to the firing of weapons by disgruntled
tribesmen witnessed during an Academy for Educational Development site visit, ongoing armed
clashes between the government and disenfranchised groups have hampered progress in Saada
Governorate. The government and factional leaders there stopped fighting and accepted a
ceasefire during the time of the USAID audit in June 2007. In July 2007, a suicide car bomber
attacked and killed seven Spanish tourists in Mareb Governorate.

                                                                                             11 

Another hindrance to achieving results was the Basic Education program literacy
component, which included 16 indicators. The literacy component made little progress.
The implementers had relied upon an initial design plan for adult literacy that was
rejected by USAID/Yemen because its work components were deemed impractical. For
example, for a life-skills activity, the associate proposed teaching rural Yemeni youth
auto repair skills in areas very sparsely populated with young men, and where there
were no realistic identified needs.

Despite such difficulties, USAID/Yemen needs to effectively measure the progress of the
Basic Education program to include indicators that are measurable and achievable.
Both USAID’s Automated Directives System (ADS) and the cooperative agreement with
the American Institutes for Research require measurable and achievable indicators. For
example, paragraph (b) of ADS 203.3.2.1, “Keys to Effective Performance
Management,” stresses the use of performance information to assess progress toward
the achievement of results and for making management decisions.                Available
performance information tools might include progress reports, periodic evaluations or
assessments, and portfolio reviews. The mission’s Basic Education program relied on
the implementers’ progress reports. However, these progress reports lacked data to
effectively measure the results of the Basic Education program. In addition, the mission
did not perform a planned midterm evaluation during fiscal year 2006. ADS 203.3.4.5,
“Setting Performance Baselines and Targets,” states that indicators “should include
performance baselines and set performance targets that can optimistically but
realistically be achieved within the stated timeframe and with the available resources.”
The cooperative agreement also required the American Institutes for Research to
develop a comprehensive monitoring and evaluation plan to measure program progress
and impact.

The U.S. Government Accountability Office’s “Standards for Internal Control in the
Federal Government” requires clear documentation of transactions and events.
However, the Basic Education program quarterly reports did not accurately report or
document indicators consistently in its three monitoring and evaluation plans. Without
sufficient measurement and reporting, USAID/Yemen lacked reliable data. Detailed
information is needed to make sound decisions about the effectiveness and future
direction of the program.        Therefore, the audit team made the following
recommendations.

       Recommendation No. 3: We recommend that USAID/Yemen revise the
       Basic Education program monitoring and evaluation plans to include
       indicators that are measurable and achievable.

       Recommendation No. 4: We recommend that USAID/Yemen require that
       the Basic Education program progress reports include a consistent set of
       indicators to measure performance.




                                                                                  12 

More Cost-Efficient Implementing
Instrument Is Needed

  Summary:        USAID/Yemen’s cooperative agreement arrangements with the
  American Institutes for Research and the Academy for Educational Development
  produced inefficiencies in management and costs. The mission and the chief of
  party for the implementer raised concerns that multiple management layers and
  ineffective communication had contributed to slow or no achievement of intended
  results for the Yemen Basic Education program. The initial reason for this
  administrative setup was a need for a fast-track initiative for the Basic Education
  program. Approximately $2 million was budgeted for the overhead costs of the
  American Institutes for Research and another $2 million was budgeted for the
  indirect cost charges of the Academy for Educational Development. As a result, of
  the $13.5 million in total project costs, approximately $4 million (or 30 percent) was
  set aside for overhead and indirect costs.            In light of inherent fiduciary
  responsibilities for funds entrusted to it, USAID/Yemen should consider a more
  cost-efficient implementing instrument for its Basic Education program.


Mission officials and the Academy for Educational Development’s chief of party raised
concerns about management-related issues of the project. The chief of party said that
he felt left out of the lines of communication with the American Institutes for Research
owing to multiple management layers and lines of approval authorities. He cited
difficulty in putting ideas across and getting approval for some activities. Mission staff
felt that ineffective communication between the two implementers may have contributed
to the slow progress of the Basic Education program.

Cost inefficiencies were also seen in the cooperative agreement—specifically, separate
U.S. home offices costs for the American Institutes for Research and the Academy for
Educational Development, plus a field office for the Academy for Educational
Development.       According to the amended cooperative agreement between
USAID/Yemen and the American Institutes for Research, approximately $2 million was
budgeted for the overhead costs of the American Institutes for Research and another $2
million was budgeted for the indirect cost charges of the Academy for Educational
Development. As shown in table 3, of the $13.5 million in total project costs,
approximately $4 million (or 30 percent) was set aside for overhead and indirect costs.

                   Table 3: Budgeted Overhead and Indirect Costs

                     American Institutes for
                     Research overhead costs              $1,929,443
                     Academy for Educational
                     Development indirect costs           $2,068,414
                                             Total =      $3,997,857

The mission used two qualified implementers working in partnership on the Basic
Education program even though it was highly possible that one could have performed
the work with significantly lower administrative costs. This, in our opinion, amounts to
inefficient spending of resources. The reason for this administrative setup was the initial


                                                                                    13
need for a fast-track initiative at the beginning of the program. As a result, in July 2004,
USAID/Yemen awarded the cooperative agreement to the American Institutes for
Research to establish and organize the Yemen Basic Education Project. At the same
time, USAID/Yemen made an associate award under the agreement to the Academy for
Educational Development to implement the project on the ground in Yemen. The
project’s initial design coincided with a “fast-track” initiative to complement the U.S.
Government’s strategy in Yemen. The intention of USAID/Yemen was to increase basic
education opportunities and quality rapidly and visibly in target areas.

The mission director noted that USAID/Yemen submitted a $20 million proposal for the
continuation of Yemen’s education program beyond July 2008. This issue was the
subject of a diplomatic discussion between President Bush and Yemen’s President
Saleh during meetings in Washington in May 2007. In a September 2007 press release,
USAID announced Yemen’s inclusion in the Presidential International Education
Initiative, along with Ethiopia, Mali, Liberia, Ghana, and Honduras. The mission director
said that he was interested in considering a more cost-efficient implementing mechanism
for the Basic Education program. USAID operating policies and procedures do not
specifically require USAID missions to monitor the efficiency of program operations.
However, this is inherent in the fiduciary duty of USAID for the funds entrusted to it.
Therefore, the audit team made the following recommendation.

       Recommendation No. 5: We recommend that USAID/Yemen develop a
       more cost-efficient implementing instrument for the continuation of the
       Basic Education program.




                                                                                     14 

EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Yemen agreed with all of the report
recommendations and outlined its actions to implement each of the recommendations
which strengthen measures to better manage the USAID-funded activities.

In regard to recommendation no. 1, the mission outlined procedures to perform periodic
assessments of the implementers’ progress, including weekly and monthly meetings;
submitted a revised monitoring and evaluation plan; and submitted the most recent
quarterly progress report with revised indicators.

In regard to recommendation no. 2, the mission outlined several actions of substantial
involvement by the cognizant technical officer, including two staff members becoming
certified as cognizant technical officers, training for the cognizant technical officers, and
the development and approval of a revised monitoring and evaluation plan.

In regard to recommendation no. 3, the mission submitted a revised and fully approved
monitoring and evaluation plan with indicators that were measurable and achievable.
The mission explained that indicators and targets were revised to accurately represent
the scope of the program, dropped targets were accounted for with justifications, and all
new or revised targets included baseline data.

In regard to recommendation no. 4, the mission submitted the two most recent quarterly
progress reports with a consistent set of indicators to measure performance. The
mission does not anticipate further changes.

In regard to recommendation no. 5, the mission stated that it will implement the follow-on
education program through a single implementer. It intends to complete such an
agreement by the close of fiscal year 2008.

As a result of mission actions to implement each of the recommendations, management
decisions and final actions have been completed for recommendation nos. 1, 2, 3, and 4.
A management decision has been reached for recommendation no. 5. Determination of
final action for recommendation no. 5 will be made by the Audit Performance and
Compliance Division (M/CFO/APC) upon completion of the actions planned by the
mission. USAID/Yemen’s comments for the draft report are included in their entirety in
appendix II.




                                                                                      15 

                                                                           APPENDIX I




SCOPE AND METHODOLOGY

Scope

The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted government auditing standards. We designed this audit to determine whether
USAID/Yemen’s Basic Education program had achieved its intended results.

The audit covered the Basic Education program’s performance indicators for fiscal year
2006 and the first two quarters of fiscal year 2007, as detailed in the September 2005,
June 2006, and October 2006 monitoring and evaluation plans. From July 2004 to
March 2007, USAID/Yemen disbursed about $6.5 million of $13.5 million that had been
requested using a cooperative agreement. The project was led by the American
Institutes for Research, with the Academy for Educational Development serving as the
field implementer. We conducted our audit from June 2 to September 4, 2007, at the
offices of USAID/Yemen; the office of the Academy for Educational Development in
Sana’a, Yemen; and the office of the Regional Inspector General/Cairo. We also met
with the American Institutes for Research’s project director and visited the Ministry of
Education offices of the Government of Yemen in the governates of Sana’a and Amran.

The Basic Education program’s first year of activity began in July 2004. We reviewed
the data and written information from quarterly progress reports, monitoring and
evaluation plans, project design plans, USAID/Yemen project files, and USAID/Egypt
contracting files for fiscal year 2006 and the first two quarters of fiscal year 2007.

The audit focused on two intermediate results of the project: (1) enhanced access to
quality primary education in the public sector and (2) increased literacy and numeracy
opportunities at the community level. These intermediate results had 51 indicators, and
the audit selected all 51 indicators to review and determine whether the Basic Education
program’s stated performance indicators had been achieved in accordance with its
monitoring and evaluation plans. The audit included monitoring and evaluation plans
encompassing the four quarters of fiscal year 2006 and the first two quarters of fiscal
year 2007.

The audit scope included assessing the following significant management controls over
the reporting of performance results:

•	 Collection of data—program officials collected data from implementers through
   monitoring and evaluation plans and quarterly progress reports.
•	 Verification of data—program officials verified data through field visits.
•	 Reporting of data—before the mission reported results in the Annual Report, the
   program office initiated discussion with the implementer.

Audit evidence included documentation such as award applications, detailed design
plans, quarterly progress reports, and project files, as well as meetings and interviews
with USAID employees, the implementers, and Government of Yemen officials. There
were no prior audit findings affecting this audit.




                                                                                 16 

                                                                           APPENDIX I



Methodology

We examined documents and information from USAID/Yemen which included annual
reports for fiscal year 2005 and fiscal year 2006 along with the implementers’ quarterly
progress reports from October 2005 to March 2007. We examined initial project design
plans submitted to USAID and various cooperative agreement award documents.

Based on reviews of reported outcomes from the quarterly progress reports, meetings
with Academy for Educational Development project implementers, meetings with Yemen
Ministry of Education officials, and discussions with USAID program officers, we made
conclusions about the level of achievement for indicators. We held discussions with the
Basic Education program team, the deputy mission director, and financial analyst. We
visited the offices of the implementing partner, Academy for Educational Development,
in Sana’a, Yemen. Our audit work included a visit to three renovated schools in Amran
Governorate to assess the work being carried out and to solicit feedback from
administrators and community participants. We examined project data, including
monitoring and evaluation plans, quarterly progress reports, and various supporting
documents, to determine if intended results were achieved for indicators during the
scope period. It was not necessary to perform an audit step to test the reliability of
computer-accessed data, as data were not generated by computer processing.

Our approach included the selection and review of all indicators, totaling 51 for the
period from October 2005 to March 2007. We compared the reported results against the
monitoring and evaluation plans submitted by the implementers in carrying out their
work. Quantifiable or qualitative targets for each indicator in the monitoring and
evaluation plans provided the measures we used for comparative purposes. A third
intermediate result, improved public sector environment for education, was not reviewed
because the Basic Education program did not perform work in this area during the period
our audit covered. We interviewed the lead implementer’s project director and the
associate implementer’s chief of party. We also observed operations, examined
documentation of reported results, and verified reported results through followup
interviews with implementers, mission education program staff, and Ministry of
Education officials. We relied on our professional judgment to assess whether the Basic
Education program had achieved its intended results. The mission was relatively new,
had relatively inexperienced staff, and operated in a difficult security environment.
Owing to these varied factors, we did not rely on one strict overall numerical scoring
system or threshold in forming our audit opinion.




                                                                                 17 

                                                                            APPENDIX II




MANAGEMENT COMMENTS



Memorandum

Date: 	        December 15, 2007

To:	          Lloyd Miller, Regional Inspector General/Cairo

From:	        Mikaela Meredith, Acting Mission Director /s/

Subject: 	    Audit of USAID Assistance for the Basic Education Program in Yemen
              Audit Report No. 6-279-08-00X-P November 26, 2007 – Draft Report

Following is USAID/Yemen’s response to the RIG education program audit report
recommendations.

Recommendation 1: We recommend that the Director, USAID/Yemen, initiate actions
to ensure that the mission performs an assessment of implementers’ progress towards
achieving program objectives.

Mission Response:

In July 2007, the CTO and the Regional Contracting Office/Cairo (RCO) officially
approved the revised M&E document submitted by AIR, the lead implementer of
USAID/Yemen’s Basic Education program, (Refer to Attachment no. 1 Revised
Monitoring and Evaluation Indicators). The most recent quarterly report after the
program audit (4th Quarter – July through September) included the table with the revised
indicators, (refer to Attachment no. 2 11th Quarterly Progress Report April 1- June 30,
2007).

In weekly and monthly meetings with the implementing partners and the Mission
Director, the CTO will regularly assess progress on these indicators using the most recent
quarterly reports as a frame of reference. Simultaneously, the CTO will follow up to
ensure that AIR continues to report on all indicators.

USAID does not anticipate changes (adding/dropping of indicators) to the M&E plan
between now and the close of the Basic Education activities in July 2008, however, the
CTO will continue to make sure that any BE project discussions relevant to indicators
will include the USAID/Yemen Office of Education. In addition, the project office has


                                                                                   18 

                                                                            APPENDIX II


an excellent M&E employee on staff. This will assure all beneficiaries of the project that
intermediate results are met.

In view of the above, the Mission believes that the proactive measures taken
associated with the relevant evidence address Recommendation 1 and constitute
final action; therefore, we request closure of the recommendation upon final report
issuance.

Recommendation 2: We recommend that the Director, USAID/Yemen, initiate actions
to ensure that the Cognizant Technical Officer becomes substantially involved with the
monitoring and evaluation plans.

Mission Response:

As a result of the subject audit, the CTO has become fully aware of his
roles/responsibilities relevant to oversight and monitoring duties and functions. The
education team is fully staffed and two of its members have become CTO (i.e. officially
certified).

The USAID Director will ensure that:
   o	 The Mission is exploring options to increase M&E capacity in USAID/Yemen
      and AED. Those options include, but not limited to, bringing TDYers from
      USAID/W; whom will train and ensure the follow up of M&E. The CTO will be
      sent to attend M&E training.
   o	 USAID/Yemen’s M&E Officer will work with the CTO to provide a refresher
      M&E workshop to all technical officers in the mission in yearly basis.

The CTO was substantially involved in the assessment of current M&E plan, which was
developed collaboratively with AIR and AED, and in the realignment of project
indicators and targets. These actions resulted into:

   o	 The targets and indicators reflect what the project is able to measure;
   o	 The targets reflect what the project has been accomplishing;
   o	 The implementing agency is clear as to how these indicators are to be reported
      upon in the quarterly reports; and
   o	 Justifications were provided for all indicators which were either dropped or which
      required a change in how they were written.

While the M&E plan is brief, we strongly believe it is comprehensive and covers every
aspect of the program. The revision of the M&E plan went through several steps:

   1.	 USAID, AED, and AIR discussed at length each indicator;
   2.	 AED put together a draft of indicators: ones to be carried over, ones which needed
       language revision and new ones;
   3.	 USAID, AED, and AIR went through the draft indicators for a second time to
       refine language;


                                                                                   19 

                                                                            APPENDIX II


   4.	 AED staff went through each indicator to verify that they are measurable. Also,
       AED justified each dropped indicators;
   5.	 AED staff revised the work plan so that each activity for the final year of the
       project cross-references back to a measurable indicator;
   6.	 AIR officially submitted the revision and justifications to USAID for review/final
       approval;
   7.	 USAID approved and submitted revisions and justification to Agreement Officer
       (AO) in USAID/Cairo for final approval; and
   8.	 AIR has subsequently submitted 11th quarterly report with the new M&E table.

In view of the above, the Mission believes that those measures address
Recommendation 2 and constitute final action, thus, we request closure of the
recommendation upon final report issuance.

Recommendation 3: We recommend that the Director, USAID/Yemen, ensure results
that functioning monitoring and evaluation mechanisms include performance measuring
components that are practical and achievable.

Mission Response:

The BE program’s indicators and targets revisions were made in coordination with the
project field office (AED) personnel, the AIR project manager who was visiting from
Washington, and the USAID/Yemen Education Team (CTO and Senior Education
Advisor). The BE program’s indicators and targets were revised to accurately represent
the scope of the program, (Refer to Attachment no. 3a Revised Monitoring and
Evaluation Indicators).

All dropped targets were accounted for with justifications, (Refer to Attachment 3bTable
of Project Indicators Dropped from Previous M&E Plans July 2007). All new or revised
targets included baseline data. These targets were approved by the CTO as well as
RCO/Cairo. This action is completed and the BE program will be reporting on these
new/revised targets and indicators.

In view of the above, the Mission believes that those measures/evidence address
Recommendation 3 and constitute final action, thus, we request closure of the
recommendation upon final report issuance.

Recommendation 4: We recommend that the Director, USAID/Yemen, ensure that
progress reports include a consistent set of indicators to measure performance.

Mission Response:

Since the RIG Education Program audit in June, the BE project has submitted two
quarterly reports (11th and 12th), (Refer to Attachment no. 4 11th Quarterly Progress
Report April 1- June 30, 2007 and 12th Quarterly Progress Report July 1- September 30,



                                                                                   20 

                                                                             APPENDIX II



2007). The Mission strongly believes that those reports clearly and consistently reflect
the revised indicators.

In view of the above, the Mission believes that final action has been taken and
requests closure of the recommendation upon final report issuance.

Recommendation 5: We recommend that the Director, USAID/Yemen, develop the
most effective and cost-efficient implementing instrument for the Basic Education
program.

Mission Response:

The Mission Director has made it clear that all additional funds for education will be
spent in such a manner so as to avoid existence of a double layer of management as with
the potential of the Leader and Associates mechanism.

At the education team’s July monthly meeting with the Mission Director, the Mission
Director requested the team to explore other options for program implementation
including financing only AED. As a result of lengthy discussions with USAID/W and a
great deal of research with our Agreement Officer in USAID/Cairo, the education team
has engaged AED through the EQUIP2 mechanism to implement a follow-on education
program to the current BE program. Since AED is already on the ground here in Yemen,
they will remain on the ground while taking the technical lead through the mechanism.

We believe that by making that management decision; having AED as the only
implementer involved in the delivery of the up-coming Basic Education Support and
Training (BEST) program will not only reduce management costs, but also will allow for
greater transparency in communication with AED’s field and home offices. To
substantiate, we are beginning to do future program planning and plan to complete a
Country Assistance Agreement (CAA) by the close of FY 2008.

In view of the above, the Mission believes that the management decision reached
also constitute final action as well thus, requests closure of the Recommendation 5
upon final report issuance.

Finally, USAID/Yemen would like to extend its appreciation to RIG/Cairo Audit Team
for their assistance in strengthening measures to better manage the USAID funded
activities.




                                                                                    21 

                                                                           APPENDIX III


    Achieved and Planned Results of USAID/Yemen’s Basic Education Program


                 Indicator                            Achieved               Planned
Intermediate Result:
Enhanced access to quality primary
education in the public sector
1. Number of basic education facilities          34—delayed or slow
improved                                              progress                  77
2. Number of desks repaired                       1,660—completed              1,660
3. Number of basic education facilities          25—delayed or slow
furnished/equipped                                    progress                  77
4. Number of schools made “girl friendly”            Not reported           Not defined
5. Number of new classrooms built             31—substantially completed        42
6. Number of old classrooms renovated           156—delayed or slow
                                                      progress                 438
7. Number of multipurpose rooms built
and furnished                                 0—delayed or slow progress         8
8. Number of schools having latrines            14—delayed or slow
renovated                                             progress                  40
                                                70—delayed or slow
9. Number of new latrines built                       progress                 255
10. Days per academic year multipurpose
rooms used                                          Not achievable             1,408
11. Number of schools having
surrounding walls built                       6—delayed or slow progress        53
12. Number of schools executing
campaigns/activities related to good             25—delayed or slow
hygiene practices                                    progress                   77
13. Number of schools made                       14—delayed or slow
handicapped accessible                               progress                   77
14. Standby Mobile Repair Team
functioning effectively in repairing school
furniture                                           1—completed                  1
15. Number of schools having their                15—delayed or slow
repairable furniture repaired                         progress                  77
16. Quantity of classroom textbooks              300—delayed or slow
distributed                                           progress                90,000
17. Quantity of teacher material
distributed (teacher manuals, teaching          1,317—delayed or slow
aides, training manuals)                              progress                 3,385
18. Number of teachers and
administrators by gender trained                   919—completed               953
19. Number of children enrolled in project
schools                                           14,486—completed            14,486
20. Percent of students achieving minimal
competency in Arabic and math                        Not reported               0
21. Average number of hours/week
teachers spend in classroom, by gender               Not reported               24


                                                                                 22 

                                                                           APPENDIX III




                 Indicator                           Achieved                Planned
22. Proportion of teachers in targeted
schools using elements of student-
centered instruction in their classrooms           Not measurable              70%
23. Percent of master teachers by gender
in schools functioning effectively                 Not measurable              75%
24. Increase in female teachers recruited,
trained, and working in targeted schools           Not measurable              20%
25. Number of cluster teacher trainers by
gender meeting teacher training
requirements                                        Not reported                50
26. Proportion of students by gender
whose reading and numeracy skills
improved                                           Not measurable              50%
27. Number of schools having parent
groups/parent councils with female
members                                           100—completed                 99
28. Number of parents groups which
introduced and adopted organized
initiatives (active projects or
engagements)                                      100—completed                 99
29. Number of schools having active
parents’ groups                                     Not reported               80%
30. Number of parent councils that cosign    Completion delayed because
for school equipment and materials            prerequisite not completed        25
31. Proportion of school-age children
(ages 6–14) by gender attending in target                                  5% male and
school clusters                                    Not measurable           10% female
32. Increased enrollment and increased
proportion of girls/session                        Not measurable           5% and 10%
33. Proportion of students by gender         Completion delayed because
(male and female) retained until grade        prerequisite not completed
three                                                                          10%
34. Proportion of students by gender         Completion delayed because
retained until grade six                      prerequisite not completed       10%
35. Proportion of students by gender         Completion delayed because
retained until grade nine                     prerequisite not completed       10%
Intermediate Result:
Increased literacy and numeracy
opportunities at the community level
36. Number of literacy programs
established                                        Not achievable               30
37. Number of communities benefiting
from non-formal education outreach
activities                                         Not achievable              80%
38. Number of types and quantities of
supplementary literacy materials
produced by the project                            Not achievable               50

                                                                                 23 

                                                                            APPENDIX III




                 Indicator                            Achieved                Planned
39. Number of literacy programs provided
with literacy materials                              Not reported            All targeted
40. Number of literacy facilities improved                                  One targeted
                                                    Not achievable           per school
41. Number of life skills centers equipped,                                    80% of
furnished, and provided with training                                         targeted
materials                                           Not achievable             centers
42. Number of integrated educational and
awareness materials distributed to
training centers                                     Not reported              12,000
43. Number of adult literacy training
manuals delivered to training centers                Not reported              24,000
44. Number of literacy teachers by gender
receiving initial training                           Not reported                50
45. Adult literacy manual adopted as
national model                                       1—completed                  1
46. Number of literacy teachers by gender     Completion delayed because
receiving refresher training                   prerequisite not completed        50
47. Proportion of literacy teachers by
gender meeting training requirements of       Completion delayed because        60%
learners                                       prerequisite not completed
48. Percentage of teachers demonstrating      Completion delayed because
better literacy/numeracy instruction           prerequisite not completed       50%
49. Number of communities informed
about importance of combating illiteracy          25—delayed or slow
among adults, especially females                      progress                   77
50. Number of out of school youth and
adults by gender attending literacy and
numeracy training programs related to
practical life skills and experiences               Not achievable               0/0
51. Number of out-of-school youth and
adults by gender who can read and do
basic mathematics                                   Not achievable              90%




                                                                                  24 

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
